Highlights
Table of Contents




                    Management
                    of Detail
                    Assignments
                    Follow-Up
Findings
Recommendation




                    Audit Report
                    Report Number
                    DP-AR-14-007

                    September 26, 2014
Appendices




                                         Print
Highlights
Table of Contents




                    Highlights                                   Background                                                       What The OIG Found
                                                                 A detail assignment is the temporary placement of a career       While the Postal Service areas have the ability to manually
                                                                 employee in another established position that is vacant or       monitor detail assignments, the areas and headquarters do
                                                                 from which the incumbent is absent. U.S. Postal Service policy   not have a comprehensive tracking system. Specifically, cost
                                                                 requires detail assignments to be made only for the shortest     issues have precluded Employee Resource Management from
Findings




                                                                 period of time necessary and used to meet emergencies caused     obtaining an automated employee detail assignment
                      From June through December                 by an abnormal workload, a change in mission or organization,    tracking system.
                                                                 or unanticipated absences.
                       2013 the Postal Service spent                                                                              Corporate Personnel Management recorded from June through
                                                                 The controller’s policy in Handbook F-15, Travel and             December 2013 about $17.8 million spent on travel related to
                        about $17.8 million on travel
                                                                 Relocation, requires documented justifications and focuses on    detail assignments. However, there are no controls in place
                       related to detail assignments.            the financial impact of detail assignments. Employee Resource    to validate that the amount is complete and accurate because
                                                                 Management’s policy in Handbook EL-312, Employment and           management is unable to determine if employees on a detail
Recommendation




                                                                 Placement, requires only the completion of a Postal Service      assignment are selecting the detail assignment dropdown
                                                                 Form 1723, Assignment Order, and focuses on the temporary        field in the eTravel system as required by policy. Additionally,
                                                                 placement and hiring of employees.                               inconsistencies remain in Postal Service detail
                                                                                                                                  assignment policies.
                                                                 The Postal Service plans to begin implementing a fully
                                                                 automated tracking system to track detail assignments and        What The OIG Recommended
                                                                 associated costs. The system will be phased in from 2015
                                                                                                                                  We recommended the chief Human Resources officer and
                                                                 to 2017.
                                                                                                                                  executive vice president implement an interim tracking system
                                                                                                                                  this fiscal year for detail assignments and associated travel
                                                                 Our objective was to follow up on the Postal Service’s
                                                                                                                                  costs, before phasing in the automated system by 2017.
                                                                 progress in managing detail assignments, associated travel
Appendices




                                                                 costs, and consistency of detail assignment policies based on
                                                                 recommendations made in our prior audit of Management of
                                                                 Detail Assignments (Report Number DP-AR-13-006, dated
                                                                 May 23, 2013).
                    Management of Detail Assignments Follow-Up
                    Report Number DP-AR-14-007
                                                                                                                                                         Print                                    1
Highlights
                    Transmittal Letter


                                                                 September 26, 2014			
Table of Contents




                                                                 MEMORANDUM FOR:	           JEFFREY C. WILLIAMSON
                                                                 	                          CHIEF HUMAN RESOURCES OFFICER AND
                                                                 	                            EXECUTIVE VICE PRESIDENT




                                                                 FROM: 			                  Kimberly F. Benoit
                                                                                            Deputy Assistant Inspector General
                                                                                             for Information Technology and Data Analysis
Findings




                                                                 SUBJECT: 			               Audit Report – Management of Detail 					
                                                                 				                       Assignments Follow-Up (Report Number DP-AR-14-007)

                                                                 This report presents the results of our audit of the Management of Detail Assignments
                                                                 Follow-Up (Project Number 14RG010DP000).

                                                                 We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                                 questions or need additional information, please contact Kevin H. Ellenberger, director,
                                                                 Data Analysis and Performance, or me at 703-248-2100.
Recommendation




                                                                 Attachment

                                                                 cc:	 Corporate Audit and Response Management
Appendices




                    Management of Detail Assignments Follow-Up
                    Report Number DP-AR-14-007
                                                                                                                                       Print                2
Highlights
                    Table of Contents

                                                                 Cover
                                                                 Highlights.......................................................................................................1
                                                                  Background.................................................................................................1
                                                                  What The OIG Found..................................................................................1
Table of Contents




                                                                  What The OIG Recommended...................................................................1
                                                                 Findings.........................................................................................................4
                                                                  Introduction.................................................................................................4
                                                                  Conclusion..................................................................................................5
                                                                  Detail Assignment Tracking System Not Implemented...............................5
                                                                  Inconsistent Policies...................................................................................5
                                                                 Recommendations........................................................................................6
                                                                  Management’s Comments..........................................................................6
                                                                  Evaluation of Management’s Comments....................................................6
                                                                 Appendices....................................................................................................7
Findings




                                                                  Appendix A: Additional Information.............................................................8
                                                                    Background .............................................................................................8
                                                                    Objective, Scope, and Methodology.........................................................8
                                                                    Prior Audit Coverage................................................................................9
                                                                  Appendix B: Management’s Comments ...................................................10
                                                                 Contact Information..................................................................................... 11
Recommendation
Appendices




                    Management of Detail Assignments Follow-Up
                    Report Number DP-AR-14-007
                                                                                                                                                           Print                      3
Highlights
                    Findings                                     Introduction
                                                                 This report presents the results of our self-initiated audit of the Management of Detail Assignments Follow-Up (Project Number
                                                                 14RG010DP000). Our objective was to follow up on the U.S. Postal Service’s progress in managing detail assignments,
                                                                 associated travel costs, and consistency of detail assignment policies, based on recommendations made in our audit of
                                                                 Management of Detail Assignments (Report Number DP-AR-13-006, dated May 23, 2013). See Appendix A for additional
                                                                 information about this audit.
                          A detail assignment is the
                                                                 A detail assignment is the temporary placement of a career employee in another established position that is vacant or from which
Table of Contents




                          temporary placement of a               the incumbent is absent. Detail assignments are supposed to be only for the shortest period of time necessary and may be used
                                                                 to meet emergencies caused by abnormal workload, a change in mission or organization, or unanticipated absences. Corporate
                         career employee in another
                                                                 Personnel Management recorded from June through December 2013 about $17.8 million spent on travel costs related to detail
                              established position.              assignments. However, there are no controls in place to validate that the amount is complete and accurate because management
                                                                 is unable to determine if employees on a detail assignment are selecting the detail assignment dropdown field in the
                                                                 eTravel system as required by policy.




                                                                                                      NON-VALIDATED TRAVEL EXPENSES
                                                                                                           FOR DETAIL ASSIGNMENTS
Findings




                                                                                                                                             ▼ HOVER BELOW ▼

                                                                                                                                             DETAIL ASSIGNMENTS
Recommendation




                                                                                                                                                DATES AUDITED


                                                                                                                                              TRAVEL EXPENSES




                                                                 The Postal Service uses two policies to manage detail assignments issued by the controller and Employee Resource
                                                                 Management. The policies outline the justifications and approvals necessary for detail assignments. Handbook F-15, Travel and
                                                                 Relocation, requires documented justifications and focuses on the financial impact of detail assignments. Handbook EL-312,
Appendices




                                                                 Employment and Placement, requires only the completion of Postal Service (PS) Form 1723, Assignment Order, and focuses on
                                                                 the temporary placement and hiring of employees. The vice president, Employee Resource Management, oversees the detail
                                                                 assignment management function to provide process and policy guidance to headquarters functional groups and area and district
                                                                 Human Resources, but requires area and district managers to follow these policies when making detail assignments.

                    Management of Detail Assignments Follow-Up
                    Report Number DP-AR-14-007
                                                                                                                                                          Print                                     4
Highlights                                                       According to the vice president, Employee Resource Management, the Postal Service plans to implement a system to address its
                                                                 inability to track detail assignments and associated costs. The system will be phased in from 2015 to 2017.

                                                                 Conclusion
                                                                 The Postal Service does not have a system to effectively monitor and manage detail assignments. Specifically, the
                                                                 vice president, Employee Resource Management has not implemented an employee detail assignment tracking system.
                     In our previous audit, we found             Additionally, inconsistencies remain in Postal Service detail assignment policies. As a result, the Postal Service cannot determine
                                                                 whether detail assignments are justified and properly approved, and whether the associated costs are properly supported. We,
Table of Contents




                      the Postal Service did not have            therefore, consider the $17.8 million of travel costs recorded within eTravel for detail assignments from June through December
                                                                 2013 as unsupported questioned costs.
                        consistent policies for detail
                              assignments and this               Detail Assignment Tracking System Not Implemented
                                                                 While Postal Service areas can manually monitor detail assignments, areas and headquarters do not have a comprehensive
                                condition remains.
                                                                 tracking system. Additionally, the vice president, Employee Resource Management, oversees the detail management function and
                                                                 provides process and policy guidance to headquarters functional groups, as well as area and district Human Resources. However,
                                                                 as of July 31, 2014, the Postal Service has not implemented an employee detail assignment tracking system to track the detail
                                                                 assignment approval process and associated travel costs to determine whether personnel are complying with those policies. From
                                                                 June 1 through December 31, 2013, the Postal Service spent about $17.8 million on travel for 44,838 detail assignments, but it did
                                                                 not validate the data was complete or accurate.1
Findings




                         The Postal Service plans to             The Postal Service plans to implement a system to address its inability to track detail assignments and associated costs. The
                                                                 system will be phased in over 2 years beginning in 2015. However, without centralized oversight of detail assignments and a
                        implement a system to track              tracking system it is difficult to determine who is on detail, whether the detail assignments are justified and properly approved, and
                       detail assignments and costs              whether the associated travel costs are properly supported.

                      and this system will be phased             Inconsistent Policies
Recommendation




                          in over 2 years beginning              Inconsistencies remained in Postal Service detail assignment policies. In our previous audit, we found the Postal Service did not
                                                                 have consistent policies for detail assignments pertaining to justification and approval.
                                         in 2015.
                                                                 Management took corrective actions but inconsistencies remained. Specifically, the detail assignment justification instructions in
                                                                 Handbook EL-312 did not match those in Handbook F-15. The corporate personnel manager believed our recommendation that
                                                                 detail assignment policies be made consistent pertained only to detail approval and not detail assignment justification. On
                                                                 August 7, 2014, management updated the justification policy in Handbook EL-312 to match Handbook F-15. Based on the actions
                                                                 taken, we are not making a recommendation. Without centralized oversight of detail assignments, it is difficult to determine if
                                                                 assignments are justified and properly approved and evaluate the costs and benefits associated with detail assignments.
Appendices




                                                                 1	   Based on data from eTravel expense records obtained from the corporate personnel manager.
                    Management of Detail Assignments Follow-Up
                    Report Number DP-AR-14-007
                                                                                                                                                                  Print                                5
Highlights
                    Recommendation                               We recommend the chief Human Resources officer and executive vice president:

                                                                 1.	 Implement an interim tracking system this fiscal year for detail assignments and the associated travel costs before phasing in
                                                                     the automated system by 2017.

                                                                 Management’s Comments
                       We recommend management                   Management agreed with the findings, but disagreed with the recommendation and the monetary impact of $17.8 million spent on
                                                                 travel related to detail assignments. Although management disagreed with the recommendation, they stated they will develop an
Table of Contents




                       implement an interim tracking             interim report by January 2015 to track executive administrative schedule employees on detail assignments and associated travel
                                                                 costs for 80 hours or more for any pay period. Management did not provide a rationale for their disagreement with the monetary
                      system for detail assignments
                                                                 impact.
                     and travel costs before phasing
                                                                 See Appendix B for management’s comments, in their entirety.
                           in the automated system
                               scheduled for 2017.               Evaluation of Management’s Comments
                                                                 The OIG considers management’s planned actions responsive to the issue discussed in the report. Further, the OIG considers
                                                                 the recommendation significant, and therefore requires OIG concurrence before closure. Consequently, the OIG requests written
                                                                 confirmation when corrective action is completed. The recommendation should not be closed in the Postal Service’s follow-up
                                                                 tracking system until the OIG provides written confirmation that the recommendation can be closed.
Findings
Recommendation
Appendices




                    Management of Detail Assignments Follow-Up
                    Report Number DP-AR-14-007
                                                                                                                                                            Print                                     6
Highlights
                    Appendices

                                                                 Appendix A: Additional Information.............................................................8
                                                                  Background .............................................................................................8
                                                                  Objective, Scope, and Methodology.........................................................8
                          Click on the appendix title
                                                                  Prior Audit Coverage................................................................................9
Table of Contents




                           to the right to navigate to           Appendix B: Management’s Comments ...................................................10
                               the section content.
Findings
Recommendation
Appendices




                    Management of Detail Assignments Follow-Up
                    Report Number DP-AR-14-007
                                                                                                                                                    Print                     7
Highlights          Appendix A:                                  Background
                    Additional Information                       A detail assignment is the temporary placement of a career employee in another established position that is vacant or from
                                                                 which the incumbent is absent. Detail assignments are made only for the shortest period necessary and may be used to meet
                                                                 emergencies caused by abnormal workload, a change in mission or organization, or unanticipated absences. A career employee
                                                                 temporarily assigned to a higher-grade position must perform the primary or core duties and be directed to assume the major
                                                                 responsibilities of the higher-grade position to be eligible for higher-level pay. Candidates for detail assignments are chosen from
                                                                 the Postal Corporate Succession Planning program, other career development programs, and other local selection panels as
                                                                 necessary.
Table of Contents




                                                                 The Postal Service uses two policies to manage detail assignments: one issued by the Office of Controller (Handbook F-15)
                                                                 and the other by Employee Resource Management (Handbook EL-312). The Office of Controller requires the approving official
                                                                 to approve all detail assignments in advance and in writing. Handbook EL-312 requires only the completion of a PS Form 1723,
                                                                 which does not incorporate all the requirements of Handbook F-15.

                                                                 The U.S. Postal Service Office of Inspector General (OIG) issued a report, Management of Detail Assignments (Report Number
                                                                 DP-AR-13-006, dated May 23, 2013), recommending the Postal Service’s chief Human Resources officer and executive
                                                                 vice president and chief financial officer and executive vice president assign the responsibility for managing detail assignments
                                                                 and associated travel costs to the appropriate functional area. Additionally, the report recommended the vice president, Employee
                                                                 Resource Management, and vice president, controller, update detail assignment policies in Handbook EL-312 to mirror
                                                                 Handbook F-15 to ensure consistency.
Findings




                                                                 The Postal Service does not have a system to effectively monitor and manage detail assignments, although the vice president,
                                                                 Employee Resource Management stated the Postal Service plans to implement a tracking system in 2015 that will be phased
                                                                 in over 2 years. This proposed system is supposed to address the Postal Service’s inability to track detail assignments and
                                                                 associated costs. Currently, the Postal Service does not have an employee detail assignment tracking system.

                                                                 Objective, Scope, and Methodology
Recommendation




                                                                 Our objective was to follow up on the Postal Service’s progress in managing detail assignments, associated travel costs, and
                                                                 consistency of detail assignment policies, based on recommendations made in our audit of Management of Detail Assignments
                                                                 (Report Number DP-AR-13-006, dated May 23, 2013).

                                                                 Our data analysis period for travel costs related to detail assignments was June 1 through December 31, 2013. To accomplish this
                                                                 objective we:

                                                                 ■■ Interviewed area and headquarters personnel to establish a universe of detailed employees and to obtain information about the
                                                                    detail assignment process.

                                                                 ■■ Interviewed headquarters personnel in the Office of Controller and Employee Resource Management to determine the status of
Appendices




                                                                    the detail tracking system and updates to policies governing detail assignments.




                    Management of Detail Assignments Follow-Up
                    Report Number DP-AR-14-007
                                                                                                                                                             Print                                      8
Highlights                                                       ■■ Interviewed area controllers and human resources managers and determined they are responsible for tracking and maintaining
                                                                    the support for detail assignments by maintaining PS Form 1723 and review Time and Attendance Collection System and detail
                                                                    assignment travel records.

                                                                 ■■ Reviewed 44,838 eTravel records provided by Corporate Personnel Management for employees charging travel costs to a
                                                                    detail assignment finance number in eTravel to determine the amount the Postal Service expended on detail assignment travel
                                                                    costs from June 1 through December 31, 2013.

                                                                 ■■ Reviewed detail assignment travel costs for employees and allocation of those costs among the associated finance numbers.
Table of Contents




                                                                    Discussed accounting for detail assignment travel expenses with headquarters and area personnel and obtained travel
                                                                    expense information from eTravel.

                                                                 We conducted this audit from January through September 2014, in accordance with generally accepted government auditing
                                                                 standards and included such tests of internal controls as we considered necessary under the circumstances. Those standards
                                                                 require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
                                                                 and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable basis for our findings
                                                                 and conclusions based on our audit objective. We discussed our observations and conclusions with management on
                                                                 August 28, 2014, and included their comments where appropriate.

                                                                 We assessed the reliability of computer-generated data by analyzing and summarizing detail assignment travel transactions, and
Findings




                                                                 interviewing area management for the purpose of this report.

                                                                 Prior Audit Coverage
                                                                 The OIG issued Management of Detail Assignments (Report Number DP-AR-13-006, dated May 23, 2013). Our report disclosed
                                                                 that the Postal Service did not effectively manage detail assignments. Specifically, the Postal Service did not ensure compliance
                                                                 with detail assignment policies and was unable to identify who was on detail and the associated travel costs. Additionally, the
                                                                 Postal Service did not have consistent policies for detail assignments pertaining to justification and approval. As a result, the
Recommendation




                                                                 Postal Service spent about $34 million annually or $68.8 million during a 2-year period on travel for detail assignments that were
                                                                 not properly supported. We recommended the chief Human Resources officer and executive vice president, in conjunction with the
                                                                 chief financial officer and executive vice president, designate overall responsibility for managing detail assignments and associated
                                                                 travel costs to an appropriate functional area to ensure detailed assignment compliance, effectiveness, and efficiency; and the
                                                                 controller update detail assignment policies to ensure they are consistent. Management agreed with the recommendations.
Appendices




                    Management of Detail Assignments Follow-Up
                    Report Number DP-AR-14-007
                                                                                                                                                             Print                                      9
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendation
Appendices




                    Management of Detail Assignments Follow-Up
                    Report Number DP-AR-14-007
                                                                 Print   10
Highlights
Table of Contents
Findings




                                                                    Contact us via our Hotline and FOIA forms, follow us on social
                                                                 networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                        or abuse. Stay informed.

                                                                                       1735 North Lynn Street
Recommendation




                                                                                      Arlington, VA 22209-2020
                                                                                            (703) 248-2100
Appendices




                    Management of Detail Assignments Follow-Up
                    Report Number DP-AR-14-007
                                                                                                                                          Print   11
